                             SOCIAL SECURITY
                                  November 10, 2004


The Honorable Jo Anne B. Barnhart
Commissioner

Dear Ms. Barnhart:

In November 2000, the President signed the Reports Consolidation Act of 2000
(Pub. L. No. 106-531), which requires that Inspectors General provide a summary and
assessment of the most serious management and performance challenges facing
Federal agencies and the agencies’ progress in addressing them. This document
responds to the requirement to include this statement in the Social Security
Administration's Fiscal Year 2004 Performance and Accountability Report.

In September 2003, we identified six significant management issues facing the Social
Security Administration for Fiscal Year 2004.

   •   Social Security Number             •   Budget and Performance
       Integrity and Protection               Integration
   •   Management of the                  •   Critical Infrastructure Protection
       Disability Process                     and Systems Security
   •   Improper Payments                  •   Service Delivery

I congratulate you on the progress you have made during Fiscal Year 2004 in
addressing these challenges. I look forward to working with you in continuing to
improve the Agency’s ability to meet its mission efficiently and effectively. Our
assessment of the status of these six management challenges is enclosed.

                                                Sincerely,




                                                S
                                                Patrick P. O’Carroll, Jr.
                                                Acting Inspector General

Enclosure




              SOCIAL SECURITY ADMINISTRATION      BALTIMORE MD 21235-0001
 Inspector General Statement
             on the
Social Security Administration’s
Major Management Challenges

          A-02-05-15092




          November 2004
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
           Social Security Number Integrity and Protection
In FY 2004, the Social Security Administration (SSA) issued over 17.5 million original and
replacement Social Security number (SSN) cards, and SSA received approximately
$545 billion in employment taxes. Protecting the SSN and properly posting the wages
reported under SSNs are critical to ensuring eligible individuals receive the full benefits due
them.

The SSN has become a key to social, legal, and financial assimilation in this country.
Because the SSN is so heavily relied on as an identifier, it is also valuable as an illegal
commodity. Criminals improperly obtain SSNs by (1) presenting false documentation;
(2) stealing another person’s SSN; (3) purchasing an SSN on the black market; (4) using the
SSN of a deceased individual; or (5) creating a nine-digit number out of thin air.

Another area of concern related to SSN integrity is the use of nonwork SSNs by noncitizens
for unauthorized employment in the United States. SSA assigns nonwork SSNs to lawful
aliens only if they can provide evidence of a valid nonwork reason. Our audits have noted a
number of issues related to nonwork SSNs, including (1) the type of evidence provided to
obtain a nonwork SSN, (2) the reliability of nonwork SSN information in SSA’s records,
(3) the significant volume of wages reported under nonwork SSNs, and (4) the payment of
benefits to noncitizens who qualified for their benefits while working in the country without
proper authorization.

Another important part of ensuring SSN integrity is the proper posting of earnings reported
under SSNs. Properly posting earnings ensures eligible individuals receive the full
retirement, survivor and/or disability benefits due them. If earnings information is reported
incorrectly or not reported at all, SSA cannot ensure all eligible individuals are receiving the
correct payment amounts. In addition, SSA’s disability programs depend on earnings
information to determine whether an individual is eligible for benefits and to calculate the
amount of benefit payments.

SSA spends scarce resources correcting earnings data when incorrect information is
reported. The Earnings Suspense File (ESF) is the Agency’s record of annual wage reports
for which wage earners’ names and/or SSNs fail to match SSA’s records. As of October
2003, the ESF had accumulated over $421 billion in wages and 244 million wage items for
Tax Years (TY) 1937 through 2001. SSA attempts to reduce the amount of items in the
ESF through edits and correspondence with employees and employers.

While SSA has limited control over the factors that cause the volume of erroneous wage
reports submitted each year, there are still areas where the Agency can improve its
processes. SSA can improve wage reporting by educating employers on reporting criteria,
identifying and resolving employer reporting problems, and encouraging greater use of the
Agency’s SSN verification programs. SSA also needs to further coordinate with other
Federal agencies that have separate, yet related, mandates. For example, the Agency has
collaborated with the Internal Revenue Service (IRS) to achieve more accurate wage




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                             1
reporting. In August 2002, SSA provided a list of all employers with more than 100 items in
the ESF to the IRS. The IRS later visited a number of these employers to review their
employee records.

SSA Has Taken Steps to Address this Challenge
SSA has taken steps to strengthen controls in its enumeration process, including
establishing an Enumeration Response Team. As a result of the Team’s efforts, SSA now
performs full collateral verification of all immigration documents before assigning SSNs to
noncitizens. SSA requires mandatory interviews for all applicants for original SSNs who are
over age 12 (lowered from age 18) and requires evidence of identity for all children,
regardless of age. In addition, SSA has established an enumeration center in Brooklyn,
New York, that focuses exclusively on assigning SSNs and issuing SSN cards. In FY 2005,
SSA will also implement new systems enhancements that will simplify the interpretation of
and compliance with the Agency’s complex enumeration policies. The system will
determine what documents and proofs the SSN applicant must present and will prompt the
employee to ask the applicant for mandatory information. SSA has also created an Identity
Theft Workgroup in which we participate. Furthermore, the Agency has made
enhancements to its Modernized Enumeration System that will interrupt the issuance of
SSN cards when parents claim to have an improbably large number of children, and add an
alert to an individual's record when the SSN has been used for the purpose of establishing a
fictitious identity.

To address nonwork SSN misuse, SSA has placed greater restrictions on the issuance of
nonwork SSNs. SSA also monitors noncitizens who have earnings posted under a nonwork
SSN and reports this information to the Department of Homeland Security. Recent
legislation should also help address this issue. In March 2004, the Social Security
Protection Act of 2004 (Pub. L. No. 108-203) was signed into law. This act generally
precludes the payment of benefits based on the earnings of noncitizens who have never
been issued an SSN indicating authorization to work in the United States. This provision is
effective with respect to SSNs issued after December 2003.

SSA has taken steps to reduce the size and growth of the ESF. For example, SSA has
piloted the Social Security Number Verification Service, which allows employers to verify the
names and SSNs of employees before reporting their wages to SSA. The Agency has also
modified its automated processes to better identify the numberholder related to items in the
ESF. SSA stated the new processes would use information stored on the earnings and
benefits records whereas previous internal edits only used the names and SSNs related to
the suspended wages. Through September 2004, SSA reduced the ESF by approximately
7.9 million items, short of its FY 2004 goal of 27.6 million items. SSA reported that the
principal reason its goal was not met was due to underestimating the time needed to design
and fully implement a new series of very complex matching software routines.

Finally, SSA is establishing an Earnings Data Warehouse (EDW) that can track employer-
specific reporting trends. This facility will be able to determine the percent of an employer’s
payroll that contains name and SSN mismatches and should allow for better targeting of
problem employers. The EDW should be able to produce a listing of employers showing
their wage reporting accuracy by the end of calendar year 2004.

IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                            2
                    Management of the Disability Process
SSA needs to improve critical parts of the disability process – determining disabilities, the
accuracy of disability payments, and the integrity of the disability programs. In January
2003, the Government Accountability Office (GAO) added modernizing Federal disability
programs—including SSA’s—to its 2003 high-risk list. GAO did this, in part, because of
outmoded concepts of disability, lengthy processing times, and decisional inconsistencies.

SSA needs to continue its efforts to improve the process used to determine claimant
disability by focusing on initiatives that will improve the timeliness and quality of its services.
For example, the Office of Hearings and Appeals’ (OHA) average processing time has
increased significantly from 297 days in FY 2000 to 391 days in FY 2004. Further, the
hearings pending workload for FY 2004 was 635,601 cases, whereas it was 346,756 cases
in FY 2000. This represents an 83.3 percent increase in OHA’s pending workload. SSA’s
efforts to address its pending workload did not meet the goals established for FY 2004. In
FY 2004, SSA processed 497,379 hearings, well below its goal of 538,000.

Another area SSA needs to improve is ensuring the correct benefits are paid to the correct
individuals. In a July 2004 report, we estimated that, although SSA identified and assessed
about $1.8 billion in overpayments because of disabled beneficiaries’ work activity, the
Agency did not detect an additional $1.4 billion in improper payments. Our review showed
that continuing disability reviews (CDR) are critical to determining whether a disabled
beneficiary continues to be eligible for benefits.

Fraud is an inherent risk in SSA’s disability programs. Some unscrupulous people view
SSA’s disability benefits as money waiting to be taken. Key risk factors in the disability
program are individuals who feign or exaggerate symptoms to become eligible for disability
benefits or who, after becoming eligible to receive benefits, knowingly fail to report medical
improvements.

SSA Has Taken Steps to Address this Challenge
SSA continues to focus on improving the disability process. In September 2003, the
Commissioner proposed a new approach for improving the disability determination process
and making the right decision as early in the process as possible. The approach includes
several initiatives that emphasize timely and accurate disability decisions. For example, a
quick-decision step would initially sort claims based on information provided by claimants to
identify people who are obviously disabled. The expedited claims would be processed by
expert review units, allowing for both timely decisions and Disability Determination Services
(DDS) to focus their resources on more complex claims. Additionally, the Commissioner
proposed an in-line quality review process managed by the DDSs. A centralized quality
control unit would replace the current SSA quality control system to quickly identify problem
areas and implement corrective actions.

The Commissioner views her September 2003 proposal as the first step in a collaborative
process eventually leading to a final plan for disability improvements. Concurrent with the
new approach, the Commissioner plans to conduct several demonstration projects to help
people with disabilities return to work.
IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                               3
In addition to her long-term proposal, the Commissioner has accelerated the Agency’s
transition to the electronic disability folder stating it is critical to improving SSA’s disability
process. The electronic disability folder will allow for disability claims information to be
stored electronically and transmitted between field offices, hearing offices, and DDSs.

SSA is addressing the integrity of its disability programs through the Cooperative Disability
Investigations (CDI) program. The CDI program’s mission is to obtain evidence that can
resolve questions of fraud in SSA’s disability programs. SSA’s Offices of Operations and
Disability Programs, along with the Office of the Inspector General, manage the CDI
program. There are 18 CDI units operating in 17 States. Since the program’s inception in
FY 1998, CDI efforts have resulted in over $410 million in projected savings to SSA’s
disability programs and over $266 million in projected savings to non-SSA programs. In
FY 2004, the CDI units saved SSA over $132 million by identifying fraud and abuse related
to initial and continuing claims within the disability program.




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                                     4
                                Improper Payments
SSA is responsible for issuing benefit payments under the Old-Age, Survivors and Disability
Insurance (OASDI) and Supplemental Security Income (SSI) programs. In FY 2003, SSA
issued about $499 billion in benefit payments to about 51 million people. Since SSA is
responsible for issuing timely benefit payments for complex entitlement programs to millions
of people, even the slightest error in the overall process can result in millions of dollars in
over- or underpayments.

Improper payments are defined as payments that should not have been made or were
made for incorrect amounts. Examples of improper payments include inadvertent errors,
payments for unsupported or inadequately supported claims, or payments to ineligible
beneficiaries. Furthermore, the risk of improper payments increases in programs with
    •   a significant volume of transactions,
    •   complex criteria for computing payments, and
    •   an overemphasis on expediting payments.

The President and Congress have expressed interest in measuring the universe of improper
payments within the Government. In August 2001, the Office of Management and Budget
(OMB) published the FY 2002 President’s Management Agenda (PMA), which included a
Government-wide initiative for improving financial performance, including reducing improper
payments. In November 2002, the Improper Payments Information Act of 2002
(Pub. L. No. 107-300) was enacted, and OMB issued guidance in May 2003 on
implementing this law. Under the Act, SSA must estimate its annual amount of improper
payments and report this information in the Agency’s annual Performance and
Accountability Report. OMB will then work with SSA to establish goals for reducing
improper payments in its programs.

SSA and the Office of the Inspector General have discussed such issues as detected
versus undetected improper payments and avoidable overpayments versus unavoidable
overpayments that are outside the Agency’s control and a cost of doing business. In
August 2003, OMB issued specific guidance to SSA to only include avoidable overpayments
in its improper payment estimate because those payments can be reduced through changes
in administrative actions. Unavoidable overpayments that result from legal or policy
requirements are not to be included in SSA’s improper payment estimate.

In FY 2004, our work in this area focused on improper payments related to disabled
beneficiaries who work. As discussed in the preceding section of this report, we found that
SSA identified and assessed about $1.8 billion in overpayments for about
117,320 beneficiaries. However, we estimated the Agency did not detect about $1.4 billion
in overpayments to approximately 63,000 disabled beneficiaries.

SSA Has Taken Steps to Address this Challenge
SSA has been working to improve its ability to prevent over- and underpayments by
obtaining beneficiary information from independent sources sooner and using technology

IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                           5
more effectively. For example, the Agency is continuing its efforts to prevent improper
payments after a beneficiary dies through the use of Electronic Death Registration
information. Also, the Agency’s CDR process is in place to identify and prevent
beneficiaries who are no longer disabled from receiving payments. Finally, SSA is
implementing eWork—a new automated system to control and process work-related
CDRs—which should strengthen SSA’s ability to identify and prevent improper payments to
disabled beneficiaries.

SSA is also taking action to recover improper payments. The Agency reported that
approximately 42 percent of OASDI overpayments and about 54 percent of SSI
overpayments were in a collection arrangement.

We have helped the Agency reduce improper payments to prisoners and improper SSI
payments to fugitive felons. However, our work has shown that improper payments—such
as those related to workers’ compensation—continue to diminish the Social Security trust
funds. Additionally, with the passage of the Social Security Protection Act of 2004, SSA has
new opportunities and faces new challenges in preventing and recovering improper
payments—such as OASDI benefits to fugitives.




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                        6
                    Budget and Performance Integration
This area encompasses SSA’s efforts to provide timely, useful, and reliable data to assist
internal and external decisionmakers in effectively managing Agency programs, as well as
evaluating performance and ensuring the validity and reliability of performance, budgeting,
and financial data.

To effectively meet its mission, manage its programs, and report on its performance, SSA
needs sound performance and financial data. Congress, the general public, and other
interested parties also need sound and credible data to monitor and evaluate SSA’s
performance. The PMA has emphasized the management and performance integration of
Federal agencies. SSA has demonstrated a commitment to the Government Performance
and Results Act of 1993 (Pub. L. No. 103-62) by developing strategic plans, annual
performance plans and annual performance reports. However, we believe SSA can further
strengthen its use of performance information by fully documenting the methods and data
used to measure performance and by improving its data sources.

Our work has found that SSA has not consistently developed or documented detailed
policies and procedures to collect, review, and report information for individual performance
indicators. For the indicators we reviewed in FY 2004, SSA did not consistently document
the data sources, data interfaces, data modifications, or controls used to ensure
performance indicator data were complete, accurate, and valid. Considering the crucial role
of the underlying data in all of SSA’s performance, financial, and data-sharing activities, the
Agency needs clear processes in place to ensure the reliability and integrity of its data.

We audited 16 performance measures in FY 2004 and found the data for 8 of the measures
were reliable while the data for 6 of the measures were not reliable. We were unable to
determine the reliability of the data used for two of the measures because SSA did not
maintain archived copies of the data used to calculate indicator results.

SSA Has Taken Steps to Address this Challenge

Our audits and reviews of SSA’s financial statements, annual performance plans and
reports, and individual performance measures disclosed that SSA has demonstrated
commitment to the production and use of reliable performance and financial management
data. For example, SSA continues to work on its Managerial Cost Accountability System
(MCAS) and expects some MCAS projects to go into production in FY 2005. SSA is the
only Federal agency that has received the Certificate of Excellence in Accountability
Reporting for its Performance and Accountability Report every year since the award
program began in FY 1998. Additionally, OMB updated the PMA scorecard in FY 2004,
continuing to rate SSA’s status in Financial Management as green, and raising the Agency’s
rating for Budget and Performance Integration from yellow to green.

The Agency has taken steps to better align its ability to match resources to performance.
The Commissioner has developed a multi-year Service Delivery Budget Plan, which aligns
costs and work years with overarching performance goals in SSA’s Strategic Plan. The
Plan was developed to demonstrate the resources required to address core workloads;

IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                           7
process special workloads; eliminate backlogs of disability claims, hearings and appeals
and other operational workloads; and to improve productivity and fiscal stewardship.
Additionally, SSA is developing an automated system that will build on the current financial,
performance and management information systems and enable the Agency to better project
how resource changes affect various workloads, outputs and outcomes. It has also
demonstrated a macro budget formulation model which helps estimate what level of
performance to expect at different levels of funding and productivity.




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                         8
       Critical Infrastructure Protection and Systems Security
The information technology revolution has changed the way governments and businesses
operate. In today’s world, every computer system is a potential target. Any disruptions in
the operation of information systems that are critical to the nation’s infrastructure should be
infrequent, manageable, of minimal duration and cause the least damage possible. The
Government must make continuous efforts to secure information systems for critical
infrastructures. Protection of these systems is essential to the operation of the
telecommunications, energy, financial services, manufacturing, water, transportation, health
care, and emergency services sectors.

SSA’s information security challenge is to understand and mitigate system vulnerabilities.
This means ensuring the security of its critical information infrastructure, such as access to
the Internet and the Agency’s networks. Since 1997, SSA has had an internal controls
reportable condition concerning its protection of information based on weaknesses in
controls over access to its electronic information, technical security configuration standards,
suitability, and continuity of systems operations. Access to the information, or access
control, is the most important of these factors. The reportable condition will not be resolved
until SSA employees only have access to the data they need to do their jobs.

While protecting its critical information infrastructure, the Agency is tasked with offering
more electronic services to the public. The Expanded Electronic Government, or
e-Government, initiative of the PMA calls for the expanded use of the Internet to provide
faster and better access to government services and information. Specifically,
e-Government calls for the Agency to help citizens find information and obtain services
organized according to their needs, and not according to the divisions created by the
Agency’s organizational chart. SSA needs to ensure that the expansion of its electronic
services does not increase the risks to its systems.

SSA Has Taken Steps to Address this Challenge

SSA addresses the protection of its critical information infrastructure and systems security in
a variety of ways. For example, it created a Critical Infrastructure Protection workgroup that
continuously works toward compliance with various directives, such as the Homeland
Security Presidential Directive and the Federal Information Security Management Act of
2002 (Pub. L. No. 107-347). Further, SSA created the Office of Information Technology
Security Policy within the Office of the Chief Information Officer. Additionally, SSA routinely
releases security advisories to its employees and has hired outside contractors to provide
expertise in this area.

SSA has been working to comply with the security portion of the e-Government initiative of
the PMA. Some of the specific steps the Agency has taken in attempt to move from an
OMB rating of yellow to green on the e-Government initiative, while maintaining an effective
overall security framework, include

   •   participating in Forward Challenge 04, the Government-wide disaster recovery
       exercise;

IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                              9
   •   assessing and adjusting the access of about 49,000 operations employees;
   •   implementing an automated tool to better track security weaknesses and help
       monitor their resolution;
   •   revising its Certification and Accreditation process to comply with new National
       Institute of Standards and Technology guidance; and
   •   progressing on the Standard Security Profile Project with the objective of eventually
       removing the reportable condition.

SSA needs to take additional steps to remove the reportable condition. Particularly, the
Agency needs to do more to ensure the number of programmers who have access to
production data is limited to only those who require the access to perform their jobs and no
more, have security configuration models for all its servers and computers, and ensure
compliance with the security configuration models. SSA also needs to ensure it continues
to sustain and expand the steps taken to date to reach the OMB rating of green for e-
Government.




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                          10
                                   Service Delivery
The Agency’s goal of “service” encompasses traditional and electronic services provided to
applicants for benefits, beneficiaries and the general public. It includes services to and from
States, other agencies, third parties, employers, and other organizations including financial
institutions and medical providers. SSA’s service-related goal supports the delivery of
“citizen-centered” services through the use of e-Government and therefore affords SSA
opportunities to advance the level of its service. Given the complexity of the Agency’s
programs, the billions of dollars in payments at stake, and the millions of citizens who rely
on SSA, the Agency is challenged to provide quality, timely, and appropriate services
consistently to its clients and the public-at-large. E-Government, human capital, and the
representative payee process pose significant challenges that impact service delivery.

The PMA calls for improved service delivery through the use of e-Government in creating
more cost-effective and efficient ways to provide service to citizens. The increased use of
e-Government will be vital as the Agency addresses rising workloads associated with the
aging of the baby-boom generation.

Another challenge to service delivery is human capital. In January 2001, GAO found that
human capital management was a pervasive problem Government-wide and added it to its
list of high-risk Federal programs and operations. In addition, Strategic Management of
Human Capital was designated as one of five Government-wide initiatives contained in the
PMA. The Agency’s critical loss of institutional skills and knowledge, combined with greatly
increased workloads at a time when the baby-boom generation will require its services,
must be addressed by succession planning, recruitment efforts, and the effective use of
technology, as previously discussed.

The integrity of the representative payee process is another specific challenge in this area.
When SSA determines a beneficiary cannot manage his or her benefits, SSA selects a
representative payee who manages and solely uses the payments for the beneficiary’s
needs. SSA reported that there are about 5.4 million representative payees who manage
about $44.8 billion in benefits for about 6.9 million beneficiaries. While representative
payees provide a valuable service for beneficiaries, SSA must continue to ensure
representative payees meet their responsibilities to the beneficiaries they serve.

In March 2004, the President signed into law the Social Security Protection Act of 2004.
This Act provides several new safeguards for those individuals who need a representative
payee, while presenting significant challenges to SSA to ensure representative payees meet
beneficiaries’ needs. For example, it requires that SSA conduct additional periodic, on-site
reviews of representative payees. It also authorizes SSA to impose civil monetary penalties
for offenses involving misuse of benefits received by a representative payee.

Our audits of representative payees have shown that improved SSA oversight and
monitoring of representative payees are needed. We identified deficiencies with
representative payees’ financial management and accounting for benefit receipts and
disbursements; vulnerabilities in safeguarding beneficiary payments; poor monitoring and



IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                           11
reporting to SSA of changes in beneficiary circumstances; inappropriate handling of
beneficiary conserved funds; and improper charging of fees.

SSA also needs to improve its selection of representative payees. For example, we
estimated in one audit report that over 1,700 individuals who had representative payees
themselves were selected as representative payees for others. These representative
payees with representative payees were responsible for managing $7.6 million in OASDI
and SSI payments over a 1 year period. We have also identified cases where SSA did not
establish representative payees for individuals found to need them. We estimated that at
least 17,000 beneficiaries were directly paid at least $342 million that should have been
paid through representative payees.

SSA Has Taken Steps to Address this Challenge
SSA has taken steps to address its e-Government, human capital, and representative
payee challenges. Within the next 5 years, the Agency expects to provide cost-effective
e-Government services to citizens, businesses and other government agencies that will give
them the ability to easily and securely transact most of their business with SSA
electronically. In the past 5 years, the Agency has launched the Internet Social Security
Benefit Application, and created on-line requests for Social Security Statements,
replacement Medicare cards, proof of income letters (formerly known as Benefit Verification
Statements) and change of address. Most recently, the Agency added the Adult Disability
and Work History Report, the Childhood Disability Report and the Appeals Disability Report
to its on-line services. Within 1 year, the recently launched electronic disability folder will be
implemented nationwide.

The Agency has taken steps to meet its future workforce needs. Studies have been
conducted to predict staff retirements and attritions for major job positions. Further, SSA
planning documents comply with the PMA and achieve expected near-term results related
to the strategic management of human capital. SSA’s ongoing progress has resulted in the
Agency obtaining a green rating for Human Capital on OMB’s PMA Scorecard.

SSA has taken steps to address its representative payee process challenge. It has
established workgroups to implement each section of the Social Security Protection Act of
2004. The Act calls for increased monitoring of representative payees. Accordingly, the
Agency is modifying the system selection processes for its site review program so it can
review fee-for-service representative payees, volume representative payees (serving 50 or
more beneficiaries) who are subject to expanded monitoring, and individual representative
payees serving 15 or more beneficiaries, as required by Section 102(b) of the Social
Security Protection Act of 2004. SSA performs these reviews triennially.




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                              12
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)
                                                                       Appendix A

Acronyms
    CDI                  Cooperative Disability Investigations
    CDR                  Continuing Disability Review
    DDS                  Disability Determination Services
    EDW                  Earnings Data Warehouse
    ESF                  Earnings Suspense File
    FY                   Fiscal Year
    GAO                  Government Accountability Office
    IG                   Inspector General
    IRS                  Internal Revenue Service
    MCAS                 Managerial Cost Accountability System
    OASDI                Old-Age, Survivors and Disability Insurance
    OHA                  Office of Hearings and Appeals
    OIG                  Office of the Inspector General
    OMB                  Office of Management and Budget
    PMA                  President’s Management Agenda
    SSA                  Social Security Administration
    SSI                  Supplemental Security Income
    SSN                  Social Security Number
    TY                   Tax Year




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)
                                                                        Appendix B

Related Office of the Inspector General Reports
   Management Challenge Area, Report Title and                            Report
         Common Identification Number                                     Issued

                    Social Security Number Integrity and Protection

Congressional Response Report: Title II Beneficiaries with          October 27, 2003
Military Earnings (A-03-04-24049)
Follow-Up Review of Employers with the Most Suspended Wage          October 30, 2003
Items (A-03-03-13026)
Management Advisory Report: The Social Security                     December 17, 2003
Administration's Procedures for Enumerating Foreign Students
(A-05-03-23056)
Utility of Older Reinstated Wages from the Earnings Suspense        December 17, 2003
File (A-03-02-22076)
Internal Control Review over the Processing of Social Security      January 29, 2004
Number Cards (Limited Distribution) (A-15-03-23025)
Management Advisory Report: Review of Universities' Issuance        April 26, 2004
of Temporary Social Security Numbers to Foreign Students
(A-08-04-24018)
Social Security Numbers with More Than One Owner                    June 23, 2004
(A-03-03-23003)
The Social Security Administration's Internal Use of Employees'     August 19, 2004
Social Security Numbers (A-13-04-24046)
Brooklyn Social Security Card Center's Compliance with Policies     August 30, 2004
and Procedures When Processing Noncitizen Social Security
Number Applications (A-08-04-14061)
Compliance with Policies and Procedures When Processing             August 30, 2004
Noncitizen Social Security Number Applications at Foreign
Service Posts (A-08-04-14060)
Field Offices' Compliance with Policies and Procedures When         August 30, 2004
Processing Noncitizen Social Security Number Applications
(A-08-04-14005)
Congressional Response Report: Survey of Educational                September 30, 2004
Institutions’ Issuance of Work Authorization Documents to Foreign
Students (A-08-04-24102)

                         Management of the Disability Process

Appeals Council Process Improvement Action Plan (A-12-02-12015)     January 21, 2004
Operations of the Office of Hearings and Appeals Megasite           February 3, 2004
(A-12-03-13039)




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                        B-1
   Management Challenge Area, Report Title and                               Report
         Common Identification Number                                        Issued
Congressional Response Report: Review of File Assembly                 March 3, 2004
Contracts at Office of Hearings and Appeals (A-07-04-24076)
Disability Determination Services' Claims Processing Performance       August 30, 2004
(A-07-03-13054)
Best Practices in Highest Producing Hearing Offices                    August 31, 2004
(A-12-04-14020)

                                   Improper Payments

Impact on the Social Security Administration’s Programs When           November 26,2003
Auxiliary Beneficiaries Have Incorrect Social Security Numbers
(A-01-03-33020)
Social Security Funds Held in Dormant Bank Accounts                    February 18, 2004
(A-02-03-23080)
Social Security Administration Controls over the Taxation and          March 3, 2004
Suspension of Payments to Foreign Beneficiaries
(A-14-03-23005)
Conserved Funds for Deceased Beneficiaries with Non-Related            March 18, 2004
Representative Payees (A-13-03-23085)
Interim Assistance Reimbursement to Los Angeles County,                March 25, 2004
California, Under the Supplemental Security Income Program
(A-13-02-12039)
Supplemental Security Income Overpayments (A-01-04-24022)              April 16, 2004
Disabled Title II Beneficiaries with Earnings Reported on the Master   July 12, 2004
Earnings File (A-01-03-13019)
Collection of Old-Age, Survivors and Disability Insurance              July 21, 2004
Overpayments to Representative Payees for Deceased Beneficiaries
(A-13-03-13049)
Title II Underpayments for Deceased Beneficiaries (A-03-03-13014)      July 21, 2004
The Social Security Administration's Prisoner Incentive Payment        July 30, 2004
Program (A-01-04-24067)
Payments to Student Beneficiaries Beyond the Maximum Age of            August 13, 2004
Entitlement (A-09-04-14050)
Overpayments in the Old-Age, Survivors and Disability Insurance        August 26, 2004
Program (A-01-04-24023)
Individuals Receiving Multiple Childhood Disability Benefits           September 16, 2004
(A-01-04-24078)

                          Budget and Performance Integration

Inspector General Statement on the Social Security Administration’s    November 6, 2003
Major Management Challenges (A-02-04-14034)
Oversight of the Fiscal Year 2003 Financial Statement Audit            November 10, 2003
(A-15-03-13068)
The Social Security Administration's Oversight of Indirect Costs       March 16, 2004
Claimed by Disability Determination Services (A-07-03-23086)


IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                           B-2
   Management Challenge Area, Report Title and                               Report
         Common Identification Number                                        Issued
Summary of State Disability Determination Services Administrative      June 18, 2004
Cost Audits Completed in Fiscal Years 2000 through 2003
(A-15-03-13061)
Performance Indicator Audit: Management Information Systems            August 13, 2004
Development and Protection (A-15-04-14071)
Performance Indicator Audit: Earnings Suspense File                    August 20, 2004
(A-15-04-14069)
Performance Indicator Audit: President's Management Agenda             September 3, 2004
Related Initiatives (A-15-04-14070)
Management Advisory Report: Summary of Single Audit Oversight          September 3, 2004
Activities May 2003 through April 2004 (A-07-04-14063)
Performance Indicator Audit: Employment for Disabled Beneficiaries     September 20, 2004
(A-02-04-14068)

               Critical Infrastructure Protection and Systems Security

Controls over the Social Security Administration's Processing Center   February 3, 2004
Action Control System (A-14-03-23076)
Project Matrix Step Two: Analysis of the Social Security               March 25, 2004
Administration's Headquarters Complex and the Office of Central
Operations (A-14-04-24006)
Congressional Response Report: Security of the Social Security         May 28, 2004
Administration's National Computer Center Back-up Tapes and
Records (A-14-04-24101)
The Social Security Administration's Monitoring of Potential           July 27, 2004
Employee Systems Security Violations (A-14-04-23004)
Fiscal Year 2004 Evaluation of the Social Security Administration’s    September 30, 2004
Compliance with the Federal Information Security Management Act
(A-14-04-14040)
The Impact on Network Security of the Social Security                  September 17, 2004
Administration's Operating Systems' Conversions (A-14-04-24019)

                                      Service Delivery

Suitability of Individuals Acting as Representative Payees             October 6, 2003
(A-02-03-13032)
San Francisco Department of Human Services – An Organizational         November 19, 2003
Representative Payee for the Social Security Administration
(A-09-03-13011)
Management Advisory Report: Current Practices in Electronic            February 3, 2004
Records Authentication (A-04-04-24004)
Inventory Review at the National Records Center (A-07-04-20426)        February 18, 2004
The Social Security Administration’s Regional Office Procedures for    March 8, 2004
Addressing Employee-Related Allegations in Region VI
(A-06-03-13075)



IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                           B-3
   Management Challenge Area, Report Title and                              Report
         Common Identification Number                                       Issued
Cabinet for Families and Children, Department for Community Based     March 10,2004
Services, Division of Protection and Permanency - An Organizational
Representative Payee for the Social Security Administration
(A-08-03-13084)
The Social Security Administration's Regional Office Procedures for   May 17, 2004
Addressing Employee-Related Allegations in Region IX
 (A-09-04-14014)
The Social Security Administration's Representative Payee Selection   May 21, 2004
Process (A-01-04-14008)
The Social Security Administration's Regional Office Procedures for   June 22, 2004
Addressing Employee-Related Allegations in Region VIII
(A-06-04-14075)
The Social Security Administration's Procedures for Addressing        June 22, 2004
Employee-Related Allegations in Region IV (A-04-04-20425)
The Social Security Administration’s Procedures for Addressing        June 24, 2004
Employee-Related Allegations in Region II (A-02-04-14007)
Creative Alternatives - An Organizational Representative Payee for    June 25, 2004
the Social Security Administration (A-15-04-14033)
The Social Security Administration's Efforts to Address Its Future    July 21, 2004
Workforce Needs (A-13-03-13064)
The Social Security Administration's Procedures for Addressing        August 30, 2004
Employee-Related Allegations in Region V (A-05-04-14086)
The Effectiveness of Policies and Procedures Used to Identify         September 16, 2004
Incarcerated Representative Payees (A-02-04-14031)
The Social Security Administration's Regional Office Procedures for   September 23, 2004
Addressing Employee-Related Allegations in Region III
(A-03-04-14044)
Mental Health Center of Boulder County, Inc. - An Organizational      September 29, 2004
Representative Payee for the Social Security Administration
(A-06-04-14038)




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)                          B-4
                                                                        Appendix C

Office of the Inspector General Contacts
Walter Bayer, Director                         Social Security Number Integrity and
Kim Byrd, Director                             Protection

Mark Bailey, Director                          Management of the Disability Process

Judith Oliveira, Director                      Improper Payments

Tim Nee, Director                              Budget and Performance Integration

Kitt Winter, Director                          Critical Infrastructure Protection and
                                               Systems Security

Shirley Todd, Director                         Service Delivery

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-3218.
Refer to Common Identification Number A-02-05-15092.




IG Statement on SSA’s Major Management Challenges (A-02-05-15092)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
